                CONTRACT AWARD FOR THE
            FLUID FLOW RESTRICTOR SPARE PART


Report No. D-2001-001                  October 3, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this report, visit the Inspector General, DoD, Home
  Page at www.dodig.osd.mil or contact the Secondary Reports Distribution Unit of
  the Audit Followup and Technical Support Directorate at (703) 604-8937 (DSN
  664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  FAX (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
AMS                     Aerospace Material Specification
DLA                     Defense Logistics Agency
DSCC                    Defense Supply Center, Columbus
GE                      General Electric
                         Office of the Inspector General, DoD
Report No. D-2001-001                                                     October 3, 2000
   (Project No. D2000CF-0155)




         Contract Award for the Fluid Flow Restrictor Spare Part

                                Executive Summary

Introduction. This audit was performed in response to a request from Senator Joseph I.
Lieberman, on behalf of Birken Manufacturing Company (Birken). Birken alleged that
the Defense Supply Center, Columbus, improperly awarded a contract for fluid flow
restrictors to General Electric at a price significantly higher than the one proposed by
Birken. The contract for 48 fluid flow restrictors was awarded at a unit price of $984.04
compared to Birken's quote of $221.40. Birken alleged its quote was improperly rejected
because it included use of a substitute material. The drawing for the fluid flow restrictor
specifies that Inconel or AMS 5524 be used to manufacture the part. Birken claimed that
use of the substitute material was accepted on previous contracts and that there had never
been a problem with the material.

The fluid flow restrictor is a flight-critical, consumable item used on the fuel system of
the J85 engine for the Air Force T-38 aircraft. General Electric is the original equipment
manufacturer for the engine. The fluid flow restrictor is managed by the Defense Supply
Center, Columbus, a component of the Defense Logistics Agency.

Audit Objective. The audit objective was to determine whether the Defense Logistics
Agency properly awarded the contract for the fluid flow restrictors in accordance with
the terms of the solicitation.

Audit Results. The Defense Supply Center, Columbus (DSCC) properly awarded the
contract for fluid flow restrictors to General Electric because the proposal from Birken
Manufacturing Company (Birken), the low bidder, specified use of a substitute material
that was not approved by the engineering support activity. DSCC granted Birken
material substitutions on prior procurements; however, DSCC notified Birken that the
material substitution was not a permanent acceptable material for future contracts. Future
proposals for the fluid flow restrictors from Birken specifying use of the approved
material should be acceptable and DSCC should be able to obtain the spare parts at the
lower unit price of $221.40 versus $984.04—a savings of 77.5 percent. We calculate
that, based on an annual demand of from 44 to 176 fluid flow restrictors, DSCC can save
between $201 and $805 thousand over a 6 year period using competitive procedures and
procuring the parts from the low bidder.
Management Comments. We provided a draft of this report on August 18, 2000. No
written response was required, and none was received. Therefore, we are publishing the
report in final form.




                                           ii
Table of Contents

Executive Summary                         i


Introduction
     Background                           1
     Objective                            2

Finding
     Contract for Fluid Flow Restrictor   3

Appendixes
     A. Audit Process
          Scope and Methodology           7
          Prior Coverage                  8
     B. Report Distribution               9
Background
    Congressional Request. This audit was requested by Senator Joseph I.
    Lieberman on behalf of a constituent, Birken Manufacturing Company, who
    alleged that the Defense Supply Center, Columbus (DSCC) improperly awarded
    contract number SP074000MNB11 for 48 fluid flow restrictors at a price
    significantly higher than the one offered by Birken. Specifically, the allegations
    stated that DSCC improperly rejected Birken's offer to manufacture the fluid flow
    restrictor using a substitute material, even though Birken had been authorized to
    use the material on two previous DSCC contracts.

    Fluid Flow Restrictor. The fluid flow restrictor, National Stock Number 4730-
    00-942-9149, is a flight-critical, consumable item used on the fuel system of the
    J85 engine for the Air Force T-38 aircraft. There are 562 T-38 aircraft currently
    in service, each containing two General Electric (GE) J85 engines. The fluid flow
    restrictor, GE part number 4007T99P01, is shown in the figure. The one-quarter-
    inch, perforated cylinder on the part is referred to as the "screen." This is the part
    requiring specific material, as discussed in this report.




                                   Fluid Flow Restrictor




                                          1
    Procurement History. Historically, the fluid flow restrictor has been supplied by
    either Birken or GE, the original equipment manufacturer. The table below shows
    the procurement history of the item from October 1997 through July 2000. The
    average annual demand for the part, based on the quantity requisitioned from
    1997 through 1999, was 44. However, DSCC recently solicited bids to
    manufacture 279 fluid flow restrictors. Contract award is pending.


                    Procurement History for Fluid Flow Restrictor

     Contract No.            Date       Contractor    Unit Price   Quantity   Total Price

     SP074097M8385           7/02/97         Birken   $ 187.50        40       $ 7,500
     SP074099MLX49           3/05/99         Birken   $ 193.50        54       $10,449
     F3460197G0002UBTD       5/11/99          G.E.    $1,325.31       20       $26,506
     SP074000MNB11           2/11/00          G.E.    $ 984.04        48       $47,234




Objective
    The audit objective was to determine whether the Defense Logistics Agency
    properly awarded the contract for the fluid flow restrictors in accordance with the
    terms of the solicitation.




                                         2
           Contract for Fluid Flow Restrictor
           DSCC properly awarded the contract for fluid flow restrictors to General
           Electric because the proposal from Birken Manufacturing, the low bidder,
           specified use of a substitute material that was not approved by the
           engineering support activity. However, after discussions with
           representatives from Birken and the manufacturer of the approved material
           (Inconel), it was determined that Birken could obtain the approved
           material at about the same price as the substitute material. As a result,
           future proposals for the fluid flow restrictors from Birken using the
           approved material should be acceptable and DSCC should be able to
           obtain the spare parts at the lower unit price. In this case, the
           Government's unit price would have been $221.40 versus $984.04—a
           savings of 77.5 percent. We calculate that, based on an annual demand of
           from 44 to 176 fluid flow restrictors, DSCC can save between $201 and
           $805 thousand over a 6 year period using competitive procedures and
           procuring the parts from the low bidder.

Request for Quotes
    On October 5, 1999, DSCC requested quotes for manufacture of 48 fluid flow
    restrictors made in accordance with applicable drawings and specifications. As a
    result, DSCC received quotes from four contractors. Birken submitted the lowest
    priced quote of $221.40. However, the bid specified use of a substitute material
    to manufacture the fluid flow restrictors. The quote stated that Aerospace
    Material Specification 5540 (hereafter referred to as Inconel), the required
    material, was not available and that the substitute material specified in its bid had
    been accepted for use on a prior contract. Two other contractors submitted quotes
    of $225 and $241.95 to provide surplus parts previously manufactured by Birken.
    GE submitted a quote of $984.04 without exception to the specifications,
    indicating GE planned to use the required material.

Basis for Contract Award
    The DSCC decision to award the contract to GE was appropriate under the
    circumstances. On February 11, 2000, DSCC awarded the contract to GE at a
    total contract cost of $47,234 citing the GE quote as the only acceptable bid.
    Birken's quote proposed using a substitute material that the solicitation clearly
    stated was unacceptable. Birken had received approval to use the same substitute
    material on two previous fluid flow restrictor contracts, however, the basis for the
    approval was unique to each contract and did not apply to subsequent
    solicitations.

    Material Requirement for Fluid Flow Restrictor. Birken's plan to use a
    substitute material did not meet solicitation requirements. The solicitation cited
    the drawing for GE part number 4007T99P01. The drawing, which was dated
    June 27, 1975, specified that the screen for the fluid flow restrictor be made from
    one of two acceptable materials, Inconel, or Aerospace Material Specification
                                          3
(AMS) 5524. The solicitation reiterated the material requirement, stating that use
of material other than Inconel or AMS 5524 was unacceptable. Inconel is the
preferred material, AMS 5524, a class 316 stainless steel, is the alternate material.
Both materials are known for their high resistance to heat and corrosion.

Substitute Material Used by Birken. Birken requested and was granted a
deviation from using the required material on two previous fluid flow restrictor
contracts, stating that Inconel was not available at the time of material purchase.
Birken received approval to use a substitute material referred to as QQ-S-766D, a
class 304L stainless steel. However, the approval granted was unique to the
circumstances for each contract and did not extend to future contracts. Because
the fluid flow restrictor is a flight critical item, all waivers or deviations to
required drawings and specifications must be approved by the Air Force
engineering support activity, San Antonio, Texas.
             First Request for Material Deviation. On January 13, 1998, Birken
submitted a request for a material deviation to use a substitute material in lieu of
required material for the restrictor screen on contract SPO74097M8385. Birken
claimed that Inconel was not available and that the material substitution had no
effect on the cost or price of the part and did not affect its form or function.
Birken obtained an independent analysis of the substitute material in comparison
to the required materials by contracting with a metallurgist from Henry Souther
Laboratories. In a February 6, 1998, memorandum to Birken the independent
metallurgist concluded that the substitute material, QQ-S-766D had “similar alloy
elements” to AMS 5524. However, the analysis was inadequate in that it did not
reference a comparison of the substitute material to Inconel or provide detailed
results of the type of analysis performed. The drawing specifies additional
requirements when AMS 5524 is used. On February 10, 1998, without contacting
the engineer support activity or conducting any extensive engineering tests to
show that the substitute material was an acceptable alternate, the Defense
Contract Management Command, Hartford (the office responsible for
administering the contract) approved Birken's request.

            Second Request for Material Deviation. On April 7, 1999,
Birken submitted a request for material deviation on another fluid flow restrictor
contract, SPO74099MLX49, that was awarded March 5, 1999. The second
request cited the same reason as the first for deviation, and included a comment
that the substitute material had been approved for use on a previous contract,
SP074097M8385. In later correspondence with DSCC, Birken stated that AMS
5524 also was unavailable. Based on input from the engineering support activity,
DSCC approved the deviation on November 16, 1999 (after Birken had responded
to the October 5, 1999 solicitation). The engineering support activity approved
the one time deviation due to the urgent need for the parts and the small quantity
involved.

            Material Substitution on Future Contracts. In a letter to Birken
dated December 10, 1999, DSCC clarified the position of the engineering support
activity on material substitutions related to the restrictor screen for future
contracts. Specifically, the letter stated that material substitutions had been
approved on prior contracts to keep production lines open; however, use of the

                                      4
     substitute material was not a permanent solution and would not be acceptable on
     future contracts. The letter also stated that DSCC believed the required materials
     were available. Based on the decision from the engineering support activity and
     prior to awarding the latest contract, SP074000MNB11, DSCC requested Birken
     to respond on whether it would comply with the material requirements. Birken
     continued to maintain that the required material was unavailable, and on April 18,
     2000, requested a permanent material substitution for all future contracts for the
     fluid flow restrictor.

Availability of Required Material
     Source of Required Material. Special Metals, Huntington, West Virginia, is the
     sole manufacturer of Inconel. Meanwhile, AMS 5524 is available industry-wide
     from multiple suppliers. We contacted Special Metals and found that it
     manufactures Inconel in bulk, that the product is available, and that other
     manufacturers make the product into screens. We passed the information on to
     Birken and suggested that the company follow up on it for use on future contracts.

     Availability of Inconel. In response, Birken contacted Special Metals and, in a
     June 27, 2000, letter to the Office of the Inspector General, DoD, stated that
     Birken had obtained a quote for a minimum purchase of Inconel. The price
     quoted for the required material was the same price Birken paid for a similar
     amount of the substitute material, QQ-S-766D. As a result, Birken stated that
     depending on the size of the next DSCC order, Birken's price on fluid flow
     restrictors should not significantly increase from the price quoted for the latest
     solicitation (contract SP074000MNB11).

Ongoing Procurement
     Increased Demand. On May 17, 2000, DSCC solicited bids for 279 fluid flow
     restrictors, a significant increase compared to quantities purchased since
     October 1997. (See table on page 2.) DSCC's latest annual demand forecast of
     176 items is four times greater than the average number of items requisitioned
     annually by customers since FY 1997. The demand increased because flight
     hours on the T-38 aircraft, the primary trainer for the Air Force, doubled in the
     past 2 years due to the large number of pilots leaving the military and the
     resulting need to train new pilots. The T-38 will continue to experience high
     usage because the acquisition for a new trainer, which was to be phased in to
     replace the T-38 aircraft, was canceled.

     Response to Solicitation. Of 20 small business manufacturers solicited for
     279 fluid flow restrictors, DSCC received 4 acceptable offers. The bids ranged
     from $115 to $1,251.51 and all four proposed using the required material. Birken
     responded to the solicitation, however, its offer was not received in a timely
     manner. To prevent material requirement problems on the fluid flow restrictor
     screen similar to those experienced in the past, DSCC is currently evaluating
     alternative actions. For example, they may cancel the current solicitation in order
     to add additional requirements to the existing acquisition item description. The

                                          5
   acquisition item description for future solicitations would require the awardee to
   provide a full material certification. The certification, which would be obtained
   from the supplier of the required material, would state the material's
   specifications. DSCC is also considering the inclusion of a requirement for first
   article testing.

Summary
   DSCC is actively pursuing alternatives to increase competition while obtaining
   fluid flow restrictors that are manufactured in accordance with required drawings
   and specifications. Birken's future proposals for fluid flow restrictors using the
   approved material should be acceptable. As a result, DSCC should be able to
   obtain the spare parts at the lower unit price of $221.40 versus $984.04—a
   savings of 77.5 percent. Over a 6 year period, we calculate that, based on an
   annual demand of from 44 to 176 fluid flow restrictors, DSCC can save between
   $201 and $805 thousand using competitive procedures and procuring the parts
   from the low bidder. DSCC's efforts to obtain additional qualified sources for the
   item, if successful, could result in additional savings to DoD.




                                        6
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We limited our review to acquisition of the fluid flow
    restrictor, National Stock Number 4730-00-942-9149, part number 4007T99P01.
    To determine if DLA had improperly awarded the contract, we reviewed the
    quotes submitted for the fluid flow restrictor and compared the unit prices and
    quantities proposed by each contractor. We also reviewed each quote to
    determine whether it was offered without or with exception, indicating the intent
    by each contractor to use the required material or a substitute, respectively. We
    obtained information for four different contracts for the fluid flow restrictors
    awarded by DSCC. We reviewed two requests for material deviation and the
    circumstances under which the deviations were approved. We also reviewed the
    different types of materials used to manufacture the fluid flow restrictor and how
    its chemical composition affects the performance of the part.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA). In response to the GPRA, the Secretary of Defense annually establishes
    DoD-wide corporate level goals, subordinate performance goals, and performance
    measures. This report pertains to achievement of the following goal, subordinate
    performance goal, and performance measure:

           FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the force
           by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (00-DoD-2)
           FY 2000 Subordinate Performance Goal 2.3: Streamline the DoD
           infrastructure by redesigning the Department's support structure and
           pursuing business practice reforms. (00-DoD-2.3) FY 2000 Performance
           Measure 2.3.1: Logistics Response Time. (00-DoD-2.3.4)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and goal.

           Logistics Functional Area. Objective: Streamline logistics
           infrastructure. Goal: Reduce weapon system cost of ownership.
           (LOG-3.3)

    Use of Computer-Processed Data. To achieve the audit we relied on computer-
    processed data from the Defense Logistics Agency. Specifically, we queried the
    Standard Automated Material Management System to determine the customers
    and average annual demand for fluid flow restrictors requisitioned from 1997
    through 1999. The computer-processed data were determined reliable based on
    results of recent spare parts audits at Defense Logistics Agency. Nothing came to

                                         7
    our attention as a result of specified procedures that caused us to doubt the
    reliability of the computer-processed data.

    Audit Type, Dates, and Standards. We performed this program audit from May
    2000 through July 2000 in accordance with auditing standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DoD. We did not review the management control program because it
    had no bearing on the allegation.

    Contacts During the Audit. We visited or contacted individuals within the DoD.
    Further details are available on request.

Prior Coverage
    No prior coverage has been conducted on the subject during the past 5 years.




                                          8
Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Logistics Studies Information Exchange
  Director, Defense Procurement
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Commander, Defense Supply Center Columbus
   Commander, Defense Supply Center Richmond
Commander, Defense Contract Management Agency

Non-Defense Federal Organizations
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
  General Accounting Office




                                           9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
 Senate Committee on Appropriations
 Senate Subcommittee on Defense, Committee on Appropriations
 Senate Committee on Armed Services
 Senate Committee on Governmental Affairs
 House Committee on Appropriations
 House Subcommittee on Defense, Committee on Appropriations
 House Committee on Armed Services
 House Committee on Government Reform
 House Subcommittee on Government Management, Information, and Technology,
   Committee on Government Reform
 House Subcommittee on National Security, Veterans Affairs, and International
   Relations, Committee on Government Reform




                                      10
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD, who
contributed to the report are listed below.

Paul J. Granetto
Terry L. McKinney
Henry F. Kleinknecht
Myra M. Frank
Nicole A. Lukacs
